   June 15, 2005




Acquisition
Audit of the Extended Range Guided
Munition Program
(D-2005-078)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BTERM II              Ballistic Trajectory Extended Range Munition II
DCMA                  Defense Contract Management Agency
ERGM                  Extended Range Guided Munition
NSFS                  Naval Surface Fire Support
RDT&E                 Research, Development, Test and Evaluation
TEMP                  Test and Evaluation Master Plan
                            INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                           June 15,2005
MEMORANDUM FOR NAVAL INSPECTOR GENERAL
SUBJECT: Report on Audit of the Extended Range Guided Munition Program
         (Report No. D-2005-078)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly. In
response to the final report, we request that the Deputy Assistant Secretary of the Navy
(Littoral and Mine Warfare), Office of the Assistant Secretary of the Navy for Research,
Development and Acquisition provide additional comments on Recommendation A. 1. by
July 15,2005.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audam@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the 1 Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Rodney D. Britt at (703) 604-9096 @SN 664-9096) or Mr. John E. Meling at
(703) 604-9091 (DSN 664-9091). See Appendix G for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                      Assistant hspec6r General
                              for Acquisition and Technology Management
               Department of Defense Office of Inspector General
Report No. D-2005-078                                                     June 15, 2005
  (Project No. D2004-D000AE-0163.000)

         Audit of the Extended Range Guided Munition Program

                                Executive Summary
Who Should Read This Report and Why? DoD and military managers involved in the
management, support, and acquisition of the Extended Range Guided Munition (the
Munition) Program (the Program) should read this report because it discusses
requirements, affordability, and reliability issues that must be addressed before the
Program progresses further through the acquisition process.
Background. The Navy uses naval surface fire support from Naval ships to conduct
amphibious operations, to demonstrate combatant power, and to perform withdrawal
operations from over-the-horizon and at close range. In assessing alternatives, the Navy
concluded that a modification to the current shipboard 5-inch, 54 Caliber, Mark 45 gun
mount, in conjunction with the development of an extended range guided munition,
would provide the best alternative for fulfilling the gun- and guided-munition portion of
the naval surface fire support mission need. In July 1996, the Navy Acquisition
Executive approved the start of the Program for entry into the engineering and
manufacturing development (now system development and demonstration) phase of the
acquisition process. A Munition round is a 5-inch projectile with a rocket motor, an
internal global positioning system receiver, and an inertial navigation system. The Navy
intends to deploy the Munition on the Arleigh Burke class destroyers in 2011. In
June 2004, the Project Manager for naval surface fire support notified the Navy
Acquisition Executive that the Program’s projected research, development, test, and
evaluation (RDT&E) funding totaled $363 million. Over the program life cycle, the
Navy plans to procure an inventory of between 8,500 and 20,780 rounds to equip two full
Munition magazines on the destroyers and to replace Munition rounds used for training.
The Navy Comptroller has budgeted $191.8 million in the Future Years Defense Program
to begin Munition production in FY 2010.
Results. The Navy did not justify the Munition quantity requirements reported in the
approved acquisition program baseline agreement and did not have a viable acquisition
strategy to immediately procure the Munition. As a result, the Navy has obligated
$354 million and plans to obligate an additional $146.1 million in RDT&E funds to
continue development of the extended range munitions technology before determining
whether it can afford the total cost for procuring and fielding the Munition. When the
Director for Expeditionary Warfare, who by section 5038, title 10, United States Code is
responsible for determining warfare requirements, validates the procurement objective,
the Navy Acquisition Executive can better determine the affordability of the Program.
Also, the Navy Acquisition Executive can inform the Marine Corps whether the
acquisition strategy is viable and whether sufficient quantities will be available for
operational use. If the validated procurement objective is unaffordable, the Navy should
put the $146.1 million in RDT&E funds ($29.9 million in RDT&E funds that remain on
the Ballistic Trajectory Extended Range Munition II contract and the $116.2 million for
developing the potential successor program) and the $191.8 million in budgeted Munition
procurement funds to better use (finding A).
The Project Manager for the Naval Surface Fire Support Program did not have a current
and comprehensive Munition test and evaluation master plan or sufficient funding to
conduct the developmental, guided flight tests needed to demonstrate whether the
Munition will perform reliably. As a result, the Project Manager is executing the
Program without adequate developmental test information on the reliability of the
Munition while proceeding towards operational testing. In addition, the Project Manager
cannot assure the Navy Acquisition Executive that sufficient test data will exist to assess
the reliability of the Munition before his decision on whether to commence full-rate
production on the Munition. Preparing an updated test and evaluation master plan and
obtaining additional test funding will enable the Project Manager to assure the Navy
Acquisition Executive that sufficient test data will exist to assess the reliability key
performance parameter for the Munition before the full-rate production decision point
(finding B).

See the Findings section of the report for detailed recommendations.

In November 2002, the Program was realigned from the Program Executive Office,
Surface Strike to the Program Executive Office, Integrated Warfare Systems. The
Program Executive Office, Integrated Warfare Systems realigned the Program under the
missiles and launchers assessable unit, rather than as a separate assessable unit. As a
result, a separate management control program review of the Program has not been
performed since FY 2001.

Management Comments. The Deputy Assistant Secretary of the Navy (Littoral and
Mine Warfare) responded for Assistant Secretary of the Navy (Research, Development,
and Acquisition); the Director, Naval Surface Warfare Division; the Director for
Expeditionary Warfare; and the Project Manager, Naval Surface Fire Support. Although
the Deputy Assistant Secretary did not agree that the Director for Expeditionary Warfare
was responsible for performing the requirements analysis, he stated that the Marine
Corps Combat Development Command was developing the initial and development
capabilities documents which would provide validated and approved procurement
numbers for the ERGM by December 2005. The Deputy Assistant Secretary stated that it
would be premature to stop the current Program or the Ballistic Trajectory Extended
Range Munitions Project until after the Navy Acquisition Executive holds an Acquisition
Strategy Program Review in late May 2005. He stated that the Navy Acquisition
Executive would consider discontinuing further funding of the Program as an option at
the Program Review. The Deputy Assistant Secretary stated that any acquisition strategy
approved by the Navy Acquisition Executive would require a fully funded program. The
Deputy Assistant Secretary additionally stated that the test and evaluation master plan
would be revised to provide a description of the management structure, a description of
the test events, a capabilities matrix, and resource requirements. He further stated that
the Navy and the Director, Operational Test and Evaluation would establish the
appropriate number of developmental guided flights required to demonstrate that the
program reliability requirements were met.

Audit Response. Contrary to the Deputy Assistant Secretary of the Navy (Littoral and
Mine Warfare) comments, we believe that the Director for Expeditionary Warfare is
responsible for supervising warfare requirements pursuant to section 5038, title 10,
United States Code. We request that the Director for Expeditionary Warfare provide
comments in response to the final report on when he will meet his statutory obligation by
approving the completion of a requirements analysis to determine the quantity of
Extended Range Guided Munitions by July 15, 2005.

                                             ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objective                                                                     3

Findings
     A. Quantity Requirements and Procurement Strategy for the Extended Range
          Guided Munition                                                      4
     B. Test and Evaluation Planning for the Extended Range Guided Munition   12

Appendixes
     A. Scope and Methodology                                                17
         Management Control Program Review                                   18
         Prior Coverage                                                      19
     B. Glossary                                                             21
     C. Description of the Extended Range Guided Munition Components
         and the Concept of Operation                                        24
     D. Another Matter of Interest                                           26
     E. Determining Quantity Requirements for the Extended Range
         Guided Munition                                                     27
     F. Audit Response to Management Comments on the Report                  30
     G. Report Distribution                                                  33

Management Comments
     Department of the Navy                                                  35
Background
    The Navy uses naval surface fire support (NSFS) from Naval ships to conduct
    amphibious operations, to demonstrate combatant power, and to perform withdrawal
    operations from over-the-horizon and at close range. In May 1992, to meet the wide
    range of requirements in support of the Marine Corps expeditionary operations and
    the joint land battle, the Navy validated the need to satisfy NSFS requirements
    through a combination of guided munitions, rockets, and missiles that increased
    range, accuracy, and lethality. In assessing alternatives, the Navy concluded that a
    modification to the current shipboard Mark 45 5-inch, 54-caliber (Mk 45) gun
    mount, in conjunction with the development of an extended range guided munition,
    would provide the best alternative for fulfilling the gun- and guided-munition portion
    of the NSFS mission need. Appendix B provides definitions of technical terms used
    in this report.

    Extended Range Guided Munitions Program. In July 1996, the Navy Acquisition
    Executive approved the Extended Range Guided Munition (ERGM) Program to
    enter the engineering and manufacturing development (now system development and
    demonstration) phase of the acquisition process as an acquisition category II
    program. The ERGM round is a 5-inch projectile with a rocket motor, an internal
    global positioning system receiver, and an inertial navigation system. The global
    positioning and inertial navigation systems, working together, provide the ERGM
    with autonomous guidance and control to target positions assigned before firing, and
    the rocket motor provides the ERGM with a far greater range capability than current
    ballistic projectiles. The ERGM round has a unitary warhead that is lethal against
    soft-to-medium hardened targets. The figure illustrates the concept of operation for
    the ERGM round.

                                                                        Unitary Warhead
                                                                       With Height of Burst

            GPS Acquisition
               Window                         Establish Glide Slope
                                                 for Max Range


                           Canards
           Motor Burn      Deploy
                                           If GPS Jammed,
                                                Inertial
                                              Guidance to
                           Data Load Gun        Target
                            Launch Fins                       Body Angle
                          Deploy Battery On                    Control for
                                                             Added Lethality

                                                                                 Target


    Concept of Operation for the ERGM

    See Appendix C for a description of the ERGM round components and further
    details on the concept of operation. The Navy plans to deploy the ERGM on
    27 Arleigh Burke Class destroyers beginning in 2011. Each destroyer has one 5-inch

                                          1
           gun mount that is capable of firing the ERGM. Over the program life cycle, the
           Navy plans to procure an inventory between 8,500 and 20,780 rounds to equip
           two full ERGM magazines 1 on the destroyers and to replace ERGM rounds used for
           training. The Navy Comptroller budgeted $191.8 million in the Future Years
           Defense Program to begin ERGM production in FY 2010.

           ERGM Acquisition History. In September 1996, the Navy awarded Texas
           Instruments, Lewisville, Texas, a cost-plus-award-fee development contract for
           $43.9 million to design and develop the ERGM. The Navy Acquisition Plan stated
           that development costs for the ERGM Program would be $113.2 million and that
           technical development risk was low to medium. The Project Manager, Naval
           Surface Fire Support (the Project Manager) based the report’s cost projections on the
           assumption that the technology from the former semi-active Laser Guided Projectiles
           developed in the 1980s could be leveraged without significant redesign. In January
           1997, Raytheon Missile System (Raytheon), Tucson, Arizona, acquired Texas
           Instruments and relocated work on the ERGM development contract to Tucson.
           Since the relocation, the Navy has twice restructured the contract, with contract
           development costs increasing from $43.9 million to $178.6 million and estimated
           ERGM total life-cycle costs increasing from $523.7 million to $1.37 billion. In
           June 2004, the Project Manager notified the Navy Acquisition Executive that the
           ERGM Program was close to the threshold for classification as an acquisition
           category I program because the projected research, development, test, and evaluation
           (RDT&E) funding totaled $363 million.

           ERGM Performance During Tests. From June 2003 to February 2004, the ERGM
           experienced a series of failures during flight tests. After the last failure in February
           2004, the contracting officer issued a partial stop work order and directed Raytheon
           to investigate the root cause of the failures. In May 2004, after Raytheon stated to
           the project manager that the root cause of the failures had been identified, the
           contracting officer canceled the stop work order.

           In October 2003, because of the ERGM contract cost increases and performance
           concerns identified during tests, the Assistant Secretary of the Navy (Research,
           Development, and Acquisition) decided to pursue an alternative design to satisfy the
           NSFS guided munition requirement. On October 31, 2003, the contracting officer
           issued a broad agency announcement for the Ballistic Trajectory Extended Range
           Munition (BTERM II) as a possible low-cost alternative to the ERGM.

           Alternative Missile System. On May 10, 2004, the Navy awarded Alliant
           Techsystems, Inc., Rocket Center, West Virginia, a cost-plus-incentive-fee contract
           for approximately $30 million to develop and demonstrate the capabilities of the
           BTERM II. Because the BTERM II technology was promising, the Navy
           Acquisition Executive directed the Project Manager to prepare a revised acquisition
           strategy to plan for another full-and-open competition contract for the development
           of the extended range munition capability. The Project Manager’s draft acquisition
           strategy specifies that the Navy Acquisition Executive will select from the ERGM,
           the BTERM II, and other qualified contractors in FY 2006, based on test results yet
           to be demonstrated. If the BTERM II or another technology is selected, the Project
           Manager plans to establish a new acquisition category II program in the system
1
    A magazine is a storage compartment onboard a warship that is specifically used for storing weapons.

                                                        2
    development and demonstration acquisition phase of the acquisition process. To
    accomplish the new project, the Project Manager requested programming of
    $146.1 million in RDT&E funds ($29.9 million in RDT&E funds for the BTERM II
    contract and the $116.2 million for continued development of the potential successor
    program) in the Future Years Defense Program.

    Program Management. Within the Naval Sea Systems Command, the Program
    Executive Officer, Integrated Warfare Systems assigned a Major Program Manager
    to be responsible for all Navy surface ship weapons within the purview of the
    Program Executive Officer, Integrated Warfare Systems, and assigned the Project
    Manager for the NSFS with direct oversight responsibility for the ERGM Program.
    The Project Manager tasked the Naval Surface Warfare Center, Dahlgren Division,
    Dahlgren, Virginia, with direct oversight responsibility, as the technical direction
    agent, for the technical development of the ERGM. In addition, the Director, Naval
    Surface Warfare Division and the Director for Expeditionary Warfare, Office of the
    Chief of Naval Operations are responsible for overseeing the establishment of
    requirements and resources for the ERGM Program. Further, section 5038, title 10,
    United States Code, specifies that the Director for Expeditionary Warfare is
    responsible for determining expeditionary warfare requirements. The Navy
    Acquisition Executive is the milestone decision authority for the ERGM.


Objective
    The audit objective was to evaluate the overall acquisition management of the
    ERGM Program. Specifically, we evaluated whether management was
    cost-effectively readying the program for the production phase of the acquisition
    process. We also evaluated the management control program as it related to the
    audit objective. See Appendix A for a discussion of the scope and methodology of
    the review, the review of the management control program, and prior coverage
    related to the audit objective. See Appendix D for a discussion of another matter of
    interest concerning Defense Contract Management Agency (DCMA) oversight of
    subcontractors.




                                          3
           A. Quantity Requirements and Procurement
              Strategy for the Extended Range
              Guided Munition
           The Navy did not justify the ERGM quantity requirements reported in the
           acquisition program baseline agreement because the Secretary of the Navy did
           not require the Director, Naval Surface Warfare Division to perform the
           required analysis to determine the planned ERGM procurement objective as
           required in DoD Instruction 3000.4, “DoD Munitions Requirements Process
           (DoD MRP),” October 23, 2003. Furthermore, the Navy did not have a viable
           acquisition strategy to immediately procure the ERGM in FY 2008 when the
           system development and demonstration phase of the acquisition process is to be
           completed. These conditions occurred because the Director, Naval Surface
           Warfare Division decided not to timely execute the procurement strategy and to
           assess alternative missile systems to satisfy ERGM requirements. As a result,
           the Navy has obligated $354 million and plans to obligate an additional
           $146.1 million in RDT&E funds to continue development of the extended range
           munitions technology before determining whether the total cost for procuring
           and fielding the ERGM is affordable.

Full Funding and Requirements Generation Policy for DoD
  Munitions
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003, sets forth policy for translating mission needs and requirements into stable,
    affordable, and well-managed acquisition programs. DoD Instruction 3000.4 describes
    the process that the Services are to use when developing munitions requirements.
    Secretary of the Navy Instruction 5000.2C, “Implementation and Operation of the
    Defense Acquisition System and the Joint Capabilities Integration and Development
    System,” November 19, 2004, establishes Navy policy for generating requirements for
    acquisition programs. Marine Corps Order 3900.15A, “Marine Corps Expeditionary
    Force Development System,” November 26, 2002, prescribes the development of future
    Marine Corps and Naval capabilities using a systematic and concept-based approach.

    DoD Instruction 5000.2. DoD Instruction 5000.2 requires DoD Components to
    establish and execute an acquisition strategy that fully funds acquisition programs in the
    Future Years Defense Program after a system concept design is selected, a program
    manager is assigned, requirements are approved, and system-level development is ready
    to begin. The Instruction states that an affordability determination results from
    addressing system costs during the requirements generation process. The Instruction
    also states that, in no case, shall full funding to fully execute the planned acquisition
    strategy be done later than Milestone B, System Development and Demonstration
    Phase, unless a program first enters the acquisition process at Milestone C, Production
    and Development Phase.

    DoD Instruction 3000.4. DoD Instruction 3000.4 requires the Secretaries of the
    Military Departments to establish munitions requirements to arm weapon systems and
    forces to perform under their assigned military mission, based on the current Defense
                                            4
           Planning Guidance. To accomplish this requirement, each warfighting combatant
           commander is required to generate a near-year “Phased Threat Distribution,” 2 which
           allocates targets to each Service and allied forces. The near-year Phased Threat
           Distribution focuses on an operational and contingency plan that a combatant
           commander selects. The development of a near-year Phased Threat Distribution is
           based on theater-specific assumptions, which allows each warfighting combatant
           commander to assess Service target allocations, target overlap, and risk. DoD
           Instruction 3000.4 also requires the Chairman of the Joint Chiefs of Staff to collaborate
           with the combatant commanders and the Services on the near-year Phased Threat
           Distribution and mid-term defense planning scenarios and to develop the associated out-
           year Phased Threat Distribution that Services can use to generate the DoD munitions
           requirements to support the Defense Strategy. DoD Instruction 3000.4 further states
           that the total munitions requirement is composed of war reserve munitions 3 and training
           and testing requirements.

           Secretary of the Navy Instruction 5000.2C. Secretary of the Navy
           Instruction 5000.2C requires that the Chief of Naval Operations and the Commandant
           of the Marine Corps, as user representatives, identify, define, validate, and prioritize
           mission requirements. Instruction 5000.2C further requires that the two flag officers
           continuously interact with the Assistant Secretary of the Navy (Research, Development,
           and Acquisition) throughout the acquisition process.

           Marine Corps Order 3900.15A. Marine Corps Order 3900.15A requires that the
           expeditionary force development system use a four-phased approach to identify and
           develop warfighting capability. The first phase, “Force Capability Development,”
           requires that the Marine Corps assess Marine Corps Strategy 21, “Expeditionary
           Maneuver Warfare,” and related concepts to develop and identify needed capabilities.
           The second phase, “Requirement Development,” necessitates that the Marine Corps
           develop and select a course of action using “doctrine, organization, training, materiel,
           leadership and education, and personnel and facilities.” The third phase, “Prioritization
           and Resourcing,” requires that the Marine Corps be responsible for appropriate
           coordination and participation with Navy staff counterparts in prioritizing program
           requirements. The fourth phase, “Capability Fielding and Transition,” requires that the
           Marine Corps prioritize, fund, and field capabilities.


ERGM Quantity Requirements
           The Navy did not justify the ERGM quantity requirements reported in the acquisition
           program baseline agreement because the Secretary of the Navy did not require the
           Director, Naval Surface Warfare Division to perform the analysis to determine the
           ERGM procurement objective, as required in DoD Instruction 3000.4. In the
           September 1995 acquisition strategy report and the April 1997 acquisition program
           baseline agreement that the Navy Acquisition Executive approved, the Project Manager
           identified that 500 low-rate initial production rounds and 8,000 full-rate production

2
    A phased threat distribution is the allocation of threat responsibility to an operational commander for planning
    and meeting the threat scenarios identified in the defense planning guidance.
3
    The sum of combat requirements, strategic readiness requirements, and current operation and forward presence
    requirements.

                                                            5
           ERGM rounds were needed to satisfy NSFS requirements. In the acquisition program
           baseline, however, the Project Manager stated that a true inventory objective needed to
           be established. The Project Manager revised the acquisition program baseline
           agreement in October 2002 but did not revise the original procurement objective;
           however, the Project Manager did identify an alternative procurement objective of
           20,780 rounds. The Project Manager stated that the alternative procurement objective
           represented the number of rounds needed to stock two magazines on ERGM-capable
           platforms in FY 2011, the planned initial operating capability 4 date for the ERGM. The
           Project Manager also indicated that the alternative procurement objective included
           inventory depletion quantities based on the Marine Corps’ round usage in planned
           training.

           Coordinating ERGM Requirements. Section 5038, title 10, United States Code,
           “Director for Expeditionary Warfare,” specifies that the Director for Expeditionary
           Warfare is responsible for determining warfare requirements; however, the Director for
           Expeditionary Warfare did not directly coordinate ERGM quantity requirements for the
           ERGM procurement objective with the Director, Surface Warfare Division. Although
           section 5038, title 10, United States Code specifies that the Director for Expeditionary
           Warfare is responsible for determining warfare requirements, which encompasses total
           quantity requirements for the ERGM procurement objective, the Navy does not
           recognize that position as the authority for determining procurement requirements for
           NSFS acquisition programs. The Navy’s position is contrary to the title 10 requirement.
           Further, the authority of the Director for Expeditionary Warfare was further diminished
           by the formation of the Sea Power 21 Chief of Naval Operations Strategic Actions
           Group in a November 2002 realignment within the Office of the Chief of Naval
           Operations. Under the realignment, a representative for the Office of the Chief of
           Naval Operations stated that the Director for Expeditionary Warfare was placed into a
           joint warfare component which required him to share his decision making role with
           other Directors within the Office.

           Complying with DoD Policy on Munitions Quantities. The Commanding General,
           Marine Corps Combat Development Command did provide the Navy with an analysis
           of the total number of rounds that would be required in the fleet inventory, based on the
           Defense Planning Guidance and the Quadrennial Defense Review. The Commanding
           General used four studies to prepare the analysis: two performed by the Naval Surface
           Warfare Center, Dahlgren Division, Dahlgren, Virginia; one performed by Johns
           Hopkins University, Applied Physics Laboratory, Columbia, Maryland; and one
           performed by the Marine Corps Combat Development Command, Quantico, Virginia.
           In determining the quantities of ERGM rounds needed for NSFS, the results from the
           four studies may have been useful, but the results did not provide a definitive number of
           ERGMs needed to support the ERGM inventory objective.

           During the review, the Director, Surface Warfare Division located two of the four
           studies, which specifically addressed the munition requirements that the Commanding
           General, Marine Corps Combat Development Command used to prepare the analysis;
           however, the two studies were not performed to specifically determine the ERGM
           inventory objective. The Mission Area Analysis of Operational Maneuver from the
           Sea 2015, performed by the Marine Corps Combat Development Command, identified
           critical Marine Corps’ deficiencies and provided an analytical basis for Marine Corps’

4
    The date that the Navy plans to begin introducing the ERGM into the fleet for full operations.

                                                           6
           participation in Global 99. The Volume of Fire Study, performed by the Naval Surface
           Warfare Center, Dahlgren Division, examined the use of firepower in maneuver
           warfare, assessed the emerging role of precision-guided munitions, and analyzed how
           precision-guided munitions could satisfy the requirements for volume of fire that have
           historically been provided by large quantities of unguided projectiles. Because the two
           studies were not performed in accordance with DoD Instruction 3000.4, the munition
           requirements in the studies did not consider the logistics capabilities or determine
           munition requirements for war reserves. 5

           The Commanding General used his extrapolation of the results of the four studies to
           report to the Director, Surface Warfare Division an ERGM procurement inventory
           objective that ranged from 51,650 to 409,160 rounds. The NSFS Project Manager did
           not report the estimated quantities in the October 2002 ERGM acquisition program
           baseline agreement because the Navy did not have the funds needed to procure the
           significantly higher ERGM inventory objectives projected in the four studies.

           The offices of the Director, Surface Warfare Division and the Director for
           Expeditionary Warfare agreed that the requirements analysis was not performed to
           justify the ERGM procurement objective reported in the revised acquisition program
           baseline agreement, October 2002. Had the true procurement objective been identified,
           the Navy Acquisition Executive would have had the information needed to determine
           the affordability of the ERGM Program and whether to continue the ERGM Program.
           See Appendix E for further details on responsibilities for developing ERGM quantity
           requirements and the four studies performed to identify NSFS munition requirements.


Program Acquisition Strategy
           The Navy did not have a viable program acquisition strategy to immediately acquire the
           ERGM rounds in FY 2008 when the system development and demonstration phase of
           the acquisition process will be completed because the Director, Surface Warfare
           Division decided not to timely execute the procurement strategy and to assess
           alternative missile systems to satisfy ERGM requirements.
           In the acquisition program baseline agreement, October 2002, the Program Executive
           Officer for Surface Strike (now Integrated Warfare Systems) approved the required
           cost, schedule, and performance parameters needed to transition the ERGM to the
           production phase of the acquisition process. At that time, the Project Manager stated
           that the September 1995 acquisition strategy would be updated to include requirements
           in the revised acquisition program baseline agreement. As stated in the revised program
           acquisition baseline agreement, the Navy included $236 million in Procurement of
           Ammunition, Navy and Marine Corps funding in the President’s Budget for FY 2005 to
           begin procurement of 8,500 ERGM rounds in October 2005.

           In March 2004, the Director, Surface Warfare Division decided to realign and remove
           the ERGM procurement funding account because of the performance problems with

5
    The sum of combat requirements, strategic readiness requirements, and current operation and forward presence
    requirements.


                                                         7
    developmental testing and the delay of ERGM planned production until FY 2010. To
    implement this decision, the Navy Comptroller realigned in the Program Budget
    FY 2006 Working Table (P-40 Exhibit) $358.7 million of Procurement, of Ammunition,
    Navy and Marine Corps funding--$33 million in FY 2007; $44 million in FY 2008;
    $155 million in FY 2009; $89 million in FY 2010; and $38 million in FY 2011--to the
    ERGM and other Navy acquisition programs. To enable extended range munition
    production to begin in FY 2010, the P-40 Exhibit realigned $191.8 million of the
    $358.7 million in Procurement, of Ammunition, Navy and Marine Corps funding to the
    ERGM Program in FYs 2010 and 2011--$69 million in FY 2010 and $123.0 million in
    FY 2011.

    In the President’s Budget for FY 2005, the Navy Comptroller requested $11.8 million in
    RDT&E funds to continue the ERGM developmental test program. However, in
    July 2004, the Congress reduced the ERGM Program’s RDT&E budget to $5 million,
    which affected the Project Manager’s modification of the planned development contract
    needed to timely complete the land-based flight test program. Despite these actions, in
    January 2005, the Project Manager directed the contracting officer to incorporate an
    unfunded modification for $9.3 million in the contract to enable Raytheon to conduct
    eight developmental, guided flight tests through July 2005, when the modification was
    funded.

    ERGM Program Affordability. DoD Directive 5000.1 requires that acquisition
    managers prepare a revised affordability assessment to report to the milestone decision
    authority when a funding decision results in a program acquisition strategy not being
    viable. In the affordability assessment included in the ERGM Integrated Program
    Summary for FY 1995, the Project Manager concluded that the ERGM Program was
    affordable if the quantity requirement was limited to 8,750-rounds. However, the
    Project Manager did not update the affordability assessment as required to address the
    effect of the Navy’s decision to delay production of the ERGM until FY 2010. In
    addition, an updated affordability assessment has not addressed the Navy’s ability to
    satisfy the projected ERGM inventory objective requirements, as discussed earlier,
    which were projected in the four studies to range from 51,650 to 409,160 ERGM
    rounds needed to meet the Marine Corps’ NSFS requirements.


Effect of Meeting Naval Surface Fire Support Requirements
    Although the Navy spent $354 million and plans to spend an additional $146.1 million
    in RDT&E funds to continue developing the technology for extended range munitions,
    it will not, as planned, begin to meet the Marine Corps’ near-term ERGM need for
    NSFS until FY 2010. If the Navy Acquisition Executive awards the contract to Alliant
    Techsystems, Inc., to satisfy the ERGM requirement in FY 2006, fulfillment of the
    Marine Corps’ NSFS requirement will be further delayed. To develop the alternative
    BTERM II technology, Alliant Techsystems, Inc., will need to accomplish the
    development efforts that Raytheon already completed.

    In the Program Objective Memorandum-06 Supplemental Information Sheet, the
    Project Manager stated that budgeted procurement funding did not support the
    acquisition of the 8,500 ERGM rounds specified in the approved April 1997 acquisition
    program baseline agreement or the recommended 20,780 ERGM rounds specified in the
    October 2002
                                           8
    acquisition program baseline agreement; it supported the acquisition of only
    2,500 rounds, and that, if the budgeted amount was not increased, the unit production
    cost would greatly exceed the program unit procurement cost goal.


Conclusion
    The Navy Acquisition Executive should not continue to develop the ERGM Program, or
    any successor program, until a viable acquisition strategy is established and the Navy
    commits to satisfying the Marine Corps’ NSFS requirement by fully funding a validated
    ERGM procurement objective. The $354 million in RDT&E funding that the Navy has
    already invested and the $146.1 million in RDT&E funds planned for future extended
    range munitions development may be wasted if the Navy remains less than fully
    committed to providing procurement funding for the ERGM Program. If Raytheon
    completes system development and demonstration as currently planned and is awarded
    the contract by the Navy Acquisition Executive, the Navy needs to have procurement
    funding available in FY 2008 to begin ERGM low-rate initial production.

    Further, until the Navy validates the ERGM procurement objective through the use of a
    verified, validated, and accredited requirements model, the Navy Acquisition Executive
    will not have information needed to determine the affordability of the ERGM Program
    and whether to continue the ERGM Program. If the validated procurement objective is
    unaffordable, the Navy should put the $146.1 million in RDT&E funds--$29.9 million
    in RDT&E funds that remain on the Ballistic Trajectory Extended Range Munition II
    contract and $116.2 million for development of the potential successor program
    development contract--and the $191.8 million in budgeted ERGM procurement funds to
    better use.


Management Comments on the Finding and Audit Response
    Navy Comments. The Deputy Assistant Secretary of the Navy (Littoral and Mine
    Warfare), Office of the Assistant Secretary of the Navy for Research, Development and
    Acquisition, commented that the National Defense Authorization Act for Fiscal Year
    1993 states that the Director for Expeditionary Warfare will supervise the performance
    of all staff responsibilities of the Chief of Naval Operations for expeditionary warfare,
    including responsibilities for amphibious lift, mine warfare, naval fire support, and
    other missions essential for expeditionary warfare. The Deputy Assistant Secretary
    stated that the Director, Warfare Integration and Assessment Division was responsible
    for the ERGM non-nuclear ordnance requirements process and participated with the
    Director, Expeditionary Warfare in determining the validated procurement objective for
    the ERGM.
    Audit Response. The quotation from the National Defense Authorization Act for
    Fiscal Year 1993 is accurate. In his supervisory capacity, the Director for
    Expeditionary Warfare is responsible for supervising all staff responsibilities of the
    Chief of Naval Operations for expeditionary warfare, including the approval of the
    determination of the appropriate quantities for meeting the Marine Corps’ NSFS
    requirements.

                                             9
Recommendations, Management Comments, and Audit Response
    A.1. We recommend that the Director for Expeditionary Warfare, Office of the
    Chief of Naval Operations perform a requirements analysis to determine the
    quantity of Extended Range Guided Munitions needed to support the Marine
    Corps’ naval surface fire support requirements as required in DoD
    Instruction 3000.4, “DoD Munitions Requirements Process (DoD MRP),”
    October 23, 2003. The Director should use a verified, validated, and accredited
    requirements model to perform the analysis as required in Marine Corps
    Order 3900.15A, “Marine Corps Expeditionary Force Development System,”
    November 26, 2002.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Littoral and Mine
    Warfare), Office of the Assistant Secretary of the Navy for Research, Development and
    Acquisition, responding for the Director for Expeditionary Warfare, Office of the Chief
    of Naval Operations, nonconcurred with the recommendation as written, stating that the
    appropriate office within the Office of the Deputy Chief of Naval Operations for
    Warfare Requirements and Programs to conduct the requirements analysis was the
    Director, Warfare Integration and Assessment Division. He stated that the Director
    uses the classified, DoD-compliant, non-nuclear ordnance requirements process to
    determine munitions requirements. The Deputy Assistant Secretary further stated that
    the Director, Naval Surface Warfare, in consultation with the Director for Expeditionary
    Warfare and the Director, Warfare Integration and Assessment Division, provided the
    Naval Gunnery Program Office with the unclassified, estimated, unit procurement
    objective that was contained in the original acquisition program baseline agreement.
    The Deputy Assistant Secretary also stated that the Navy will continue using the
    classified non-nuclear ordnance process to analyze ERGM procurement requirements.
    The ERGM requirements for the FY 2007 program budget submission were approved
    on March 31, 2005. He stated that the ongoing Initial Capabilities Document being
    developed by the Marine Corps and the subsequent Capabilities Development
    Document for the Extended Range Munition will provide validated procurement
    numbers for the ERGM Program. The Deputy Assistant Secretary stated that the
    Capabilities Development Document is expected to be approved by December 2005.

    Audit Response. The Deputy Assistant Secretary’s comments were not responsive to
    the recommendation. As discussed in the finding, the Office of the Deputy Chief of
    Naval Operations for Warfare Requirements and Programs did not have a requirements
    analysis to support the quantity of ERGMs to support the Marine Corps’ NSFS
    requirements identified in the acquisition program baseline agreement. Completion of
    the classified non-nuclear ordnance requirements process could ensure that validated
    munitions quantities are established and included in the initial and development
    capabilities document for the ERGM Program. However, the use of that process and
    the resulting quantity determination require approval by the Director for Expeditionary
    Warfare in accordance with section 5038, title 10, United States Code. We request that
    the Director for Expeditionary Warfare provide comments on the final report and state
    when he will meet his statutory obligation by approving the completion of a
    requirements analysis to determine the quantity of Extended Range Guided Munitions
    needed to support the Marine Corps’ naval surface fire support requirements as required
    in DoD Instruction 3000.4.


                                           10
A.2. We recommend that the Director, Naval Surface Warfare Division, Office of
the Chief of Naval Operations and the Project Manager, Naval Surface Fire
Support coordinate with the Director for Expeditionary Warfare, Office of the
Chief of Naval Operations to obtain validated procurement quantities for the
Extended Range Guided Munitions as required in Secretary of the Navy
Instruction 5000.2C, “Implementation and Operation of the Defense Acquisition
System and the Joint Capabilities Integration and Development System.”

Navy Comments. The Deputy Assistant Secretary of the Navy (Littoral and Mine
Warfare), Office of the Assistant Secretary of the Navy for Research, Development and
Acquisition concurred, stating that the ERGM Program is being restructured to reflect
the Navy’s plan to conduct a full and open competition in FY 2005 or FY 2006 to
provide a 5-inch guided projectile capability. He stated that the restructured program,
known as the Extended Range Munition, will proceed to a system development and
demonstration decision in March 2006. The Deputy Assistant Secretary stated that an
acquisition program baseline will be developed as part of the milestone review process.
He stated that the Chief of Naval Operations will approve and validate the inventory
objective.

A.3. We recommend that the Assistant Secretary of the Navy (Research,
Development, and Acquisition) direct the Project Manager, Naval Surface Fire
Support to discontinue further funding of extended range munitions technology
until the Project Manager determines that validated procurement quantities of the
Extended Range Guided Munitions, the Ballistic Trajectory Extended Range
Munition II, or any other successor system needed to satisfy Marine Corps’ naval
surface fire support requirements are affordable, and that the Navy can commit to
timely and fully funding the production phase of the acquisition process, as
required in DoD Directive 5000.2, “Operation of the Defense Acquisition System,”
May 12, 2003.

Navy Comments. The Deputy Assistant Secretary of the Navy (Littoral and Mine
Warfare), Office of the Assistant Secretary of the Navy for Research, Development and
Acquisition, nonconcurred, stating that it would be premature to stop the current
Extended Range Guided Munitions Program or the Ballistic Trajectory Extended Range
Munitions Project until after the Navy Acquisition Executive holds an Acquisition
Strategy Program Review in late May 2005. He stated that the Navy Acquisition
Executive would consider discontinuing further funding of the Program as an option at
the Program Review. The Deputy Assistant Secretary stated that both efforts were vital
to ensuring that a healthy competitive environment exists for any further competitions
and that the Navy and Marine Corps were working diligently to update the procurement
quantities. He also stated that any acquisition strategy approved by the Navy
Acquisition Executive would require a fully funded program.
Audit Response. Although the Deputy Assistant Secretary nonconcurred, his
comments were responsive to the intent of the recommendation.

For the complete text of the Navy’s comments, see the Management Comments section
of the report.




                                      11
            B. Test and Evaluation Planning for the
               Extended Range Guided Munition
            The Project Manager for the NSFS did not have a current and comprehensive
            test and evaluation master plan (TEMP) and sufficient funding to conduct
            guided flight tests before operational testing. These conditions occurred
            because the Project Manager did not update the December 1995 TEMP for the
            approval of the Director, Operational Test and Evaluation, as recommended in
            the Defense Acquisition Guidance, when the ERGM contract was significantly
            restructured in 2000 and 2002. Further, the Project Manager did not include
            funding requirements in the TEMP for developmental, guided flight tests needed
            to demonstrate the satisfaction of ERGM reliability requirements. As a result,
            the Project Manager is executing the development program without knowing
            whether adequate developmental test information will be available to support a
            decision to begin operational testing. In addition, the Project Manager cannot
            assure the Navy Acquisition Executive that sufficient test data will exist to
            assess the ERGM reliability key performance parameter before the full-rate
            production decision point.


Test and Evaluation Policy
     DoD Instruction 5000.2, the Defense Acquisition Guidebook, and Secretary of the Navy
     Instruction 5000.2C provide policy on test planning requirements.

     DoD Instruction 5000.2. DoD Instruction 5000.2 states that program managers for
     acquisition programs on the Test and Evaluation Oversight List shall prepare and
     submit a TEMP for the approval of the Under Secretary of Defense for Acquisition,
     Technology and Logistics and the Director, Operational Test and Evaluation to support
     milestones B and C and full-rate production decisions. The Instruction further requires
     the TEMP to describe the planned developmental, operational, and live-fire testing,
     including measures to evaluate the system performance, the integrated test schedule,
     and the funding requirements to accomplish the planned testing.

     Defense Acquisition Guidebook. The Defense Acquisition Guidebook states that
     program managers should update the TEMP between program milestone decision points
     when a program is significantly changed or restructured. The Guidebook also states
     that the TEMP is a contract between an acquisition program manager, the milestone
     decision authority, and the independent test agency and must be consistent with the
     acquisition strategy. The Guidebook further states that the program manager must
     follow the approved TEMP to properly budget for test and evaluation resources and
     schedules.

     Secretary of the Navy Instruction 5000.2C. The Instruction implements DoD test
     policy and requires that the TEMP describe how each key performance parameter will
     be addressed during test and evaluation.




                                            12
Current and Comprehensive Test and Evaluation Master Plan
           The Project Manager did not update the TEMP for the approval of the Director,
           Operational Test and Evaluation after the ERGM contract was significantly restructured
           in 2000 and 2002.

           Updating the Test and Evaluation Master Plan. The Navy Acquisition Executive
           approved the TEMP for the ERGM in December 1995 when the system development
           and demonstration decision, formerly the engineering and manufacturing development
           milestone decision, was made. Since the approval of the TEMP, the ERGM Program
           experienced developmental delays and flight test failures that caused significant
           restructures of the ERGM contract, as discussed in the Background section of the
           report. In addition, test plans and requirements for preparing the TEMP significantly
           changed during the 8 years that the program has been in the system development and
           demonstration phase of the acquisition process. In particular, the December 1995
           TEMP did not include requirements for:

                    •    A description of the management structure of the test and evaluation
                         working integrated process for reliability, including the sub-level working
                         groups.

                    •    A detailed schedule to identify the specific test and evaluation events that
                         take place during system development and demonstration. The detailed
                         schedule should show specific types of flight test, reliability test periods, and
                         natural environmental tests.

                    •    A description of the test and evaluation events for development and
                         operational testing, including the use of ground test assets, prototypes, and
                         production test and evaluation.

                    •    A capabilities crosswalk 6 matrix depicting the flow-down of desired
                         capabilities from the initial capabilities document to the capability
                         development document, formerly the operational requirements document,
                         and the test criteria, including measures of effectiveness, suitability,
                         survivability, and critical technical parameters.

                    •    A reliability growth plan that measures progress of the system towards
                         meeting reliability requirements of the system throughout its development.

                    •    Resource requirements, including the test and evaluation budget and
                         required funding, test assets, modeling and simulation support, facilities, test
                         participants, instrumentation, data reduction capability, expendables, and
                         any known shortfalls. The funding requirements and budget requirements
                         are critical to the overall success of the program and must be as complete
                         and as accurate as possible.

           Continuing the ERGM Program Without a Current and Comprehensive TEMP.
           Because the Project Manager did not document and update the TEMP as required, the

6
    A matrix that links the information listed in two separate documents.

                                                          13
    milestone decision authority did not have assurance that test plans supported the ERGM
    acquisition strategy. Specifically, the development test program described in the
    approved TEMP for the ERGM Program was different from the test program that the
    Project Manager was executing. Accordingly, the milestone decision authority had not
    formally approved the Project Manager’s revised test strategy, including funds required,
    to demonstrate the readiness of the ERGM for operational testing and the planned
    full-rate production decision point.

    In December 2000, recognizing the need for a revised test strategy, the milestone
    decision authority directed the Project Manager to complete the ERGM development
    test program in a series of five gates to measure progress toward completing the system
    development and demonstration phase and readiness for the low-rate initial production
    decision. The Project Manager established the five gates through a contract
    modification in December 2000. The five gates included:

           •   Gate 1, the successful completion of the 7-Card Guidance Electronic Unit
               launch and flight demonstration by March 30, 2001. Successfully completed
               as scheduled.

           •   Gate 2, the successful completion of the 5-Card Guidance Electronic Unit
               launch and flight demonstration by December 14, 2001. Successfully
               completed on January 31, 2002.

           •   Gate 3, the successful guided flight at nominal gun launch pressure by
               June 28, 2002. Successfully completed on August 28, 2002.

           •    Gate 4, the successful completion of land-based flight tests 1 and 2 by
               April 18, 2003. Raytheon failed land-based flight test 1 in October 2003.
               According to an NSFS program office representative, engineering flight
               tests 1 and 2 planned for February 2005, if successful, will complete the
               requirement for Gate 4.

           •   Gate 5, successful completion of the land-based flight tests and the ERGM
               qualification program. Completion dates have not been established.

    The Project Manager acknowledged that an updated TEMP was required to support
    developmental and operational testing. He indicated that he would update the TEMP
    before conducting operational testing. At a minimum, the Project Manager should have
    updated the TEMP when the program breaches that resulted in a significant restructure
    of the program and the contract occurred in 2000 and 2002. As of February 2005, the
    Project Manager had not updated the December 1995 TEMP for the review and
    approval of the Director, Operational Test and Evaluation.


Operational Flight Tests Necessary to Demonstrate ERGM
  Reliability Requirements
    The Project Manager did not budget sufficient funds to conduct developmental, guided
    flight tests to demonstrate the reliability growth of the ERGM munition before
    operational testing.
                                           14
    Need for Guided Flight Tests. Testers for standard munition rounds, such as the
    ERGM, usually conduct multiple munitions shots to assess munition reliability
    requirements. A reliability representative at Raytheon stated that because the ERGM
    round was launched through the Mk 45 gun mount, models and simulations could not
    be used to assess ERGM reliability. The representative stated that sufficient guided
    flight tests of the ERGM were necessary to test the survivability of the ERGM when
    launched from the Mk 45 gun mount and the performance of the ERGM rocket motor
    and guidance technology after launch.

    Number of Guided Flight Tests. Before the ERGM Project Manager conducts
    dedicated technical evaluation and operational test phases, the reliability representative
    at Raytheon stated that, to adequately demonstrate ERGM reliability growth against the
    predictions made during the design phase, the ERGM Project Manager would need to
    conduct at least 20 developmental, guided flight tests after the ERGM configuration
    stabilized. However, the Raytheon representative also stated that if the ERGM
    successfully passes gate test number 4, the Project Manager would need to conduct only
    six additional developmental, guided flight tests in different configurations of the
    ERGM before requesting approval to begin the dedicated technical evaluation and
    operational test phases.

    Project Manager Test Plans. After he completes the developmental, guided flight
    tests, the Project Manager intends to conduct 75 guided flight tests, 15 for the technical
    evaluation phase and 60 for the operational test phase. However, the 15 developmental,
    guided flight tests will not be sufficient to demonstrate that the ERGM is reliable
    because the rounds tested during the developmental, guided flight tests will not all have
    the same configuration.

    TEMP Reliability Testing Provisions. In the December 1995 TEMP, the Project
    Manager did not identify the budget required to conduct the 20 ERGM guided flight
    tests and whether alternative methods could be used to demonstrate the ERGM
    reliability requirement before the low-rate initial production decision. By not
    identifying the budget needed to demonstrate ERGM reliability requirements before
    technical and operational testing, the Project Manager did not provide the resource
    sponsor with information needed to budget for the 20 guided flight tests.


Conclusion
    The Project Manager is executing a developmental test program without knowing
    whether adequate ERGM reliability information will be available to support a decision
    to begin operational testing. In addition, the Project Manager cannot assure the Navy
    Acquisition Executive that sufficient test data will exist to assess the reliability key
    performance parameter for the ERGM before the full-rate production decision point.




                                            15
Recommendation, Management Comments, and Audit Response
    B. We recommend that the Project Manager, Naval Surface Fire Support prepare
    and submit an updated test and evaluation master plan for the Extended Range
    Guided Munition that provides a description of the management structure of the
    test and evaluation working integrated process team, a detailed schedule and
    description of the test and evaluation events, a capabilities crosswalk matrix, a
    reliability growth plan that includes an additional 20 developmental, guided flight
    tests, and test resource requirements for the approval of the Director, Operational
    Test and Evaluation.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Littoral and Mine
    Warfare), Office of the Assistant Secretary of the Navy for Research, Development and
    Acquisition, responding for the Project Manager, Naval Surface Fire Support concurred,
    stating that the revised test and evaluation master plan will be developed to provide a
    description of the management structure of the test and evaluation integrated process
    team, a detailed schedule and description of the test and evaluation events, a capabilities
    crosswalk matrix, and required test resource requirements. He further stated that the
    Navy did not necessarily agree that an additional 20 developmental guided flight tests
    would be required to demonstrate that the program reliability requirements were met.
    As part of the test and evaluation master plan development, the Deputy Assistant
    Secretary stated that the Navy and the Director, Operational Test and Evaluation would
    establish the appropriate number of guided flights required to demonstrate that the
    program reliability requirements were met.

    For the complete text of the Navy’s comments, see the Management Comments section
    of the report.




                                            16
Appendix A. Scope and Methodology
   We evaluated whether the Project Manager was cost-effectively and efficiently
   readying the ERGM Program for the production phase of the acquisition process.
   Consequently, we focused the review on the areas of timely meeting the NSFS
   requirement; the justification for ERGM procurement quantities and test planning; and
   Defense Contract Management Agency, Raytheon oversight of the contractor quality
   assurance process. We performed this audit from May 2004 through March 2005 in
   accordance with generally accepted government auditing standards.

   We reviewed documentation dated from May 1992 through October 2004, which we
   obtained from the Program Executive Office, Integrated Warfare Systems, Arlington,
   Virginia; the Naval Sea Systems Command, Arlington,Virginia; the Naval Surface
   Warfare Center, Dahlgren Division, Dahlgren, Virginia; Raytheon Missile System,
   Tucson, Arizona; and Alliant Techsystems, Inc., Rocket Center, West Virginia.

   To accomplish the audit objectives, we:

          •   Determined the justification for ERGM procurement quantities based on
              requirements set forth in section 5038, title 10, United States Code, DoD
              Instruction 5000.2, DoD Instruction 3000.4, Secretary of the Navy
              Instruction 5000.2C, Marine Corps Order 3900.15A, memorandums from
              the Commanding General, Marine Corps Combat Development Command,
              and requirements studies performed by the Naval Surface Warfare Center,
              Dahlgren Division, Dahlgren, Virginia; Johns Hopkins University, Applied
              Physics Laboratory, Columbia, Maryland; and the Marine Corps Combat
              Development Command, Quantico, Virginia.

          •   Determined whether the NSFS procurement objective was affordable and
              fully funded in the Future Years Defense Program. To accomplish the audit
              objective, we also reviewed ERGM Program documentation including the
              mission need statement, operational requirements documents for the ERGM
              and the extended range munition, memorandums from the Commanding
              General, Marine Corps Combat Development Command, the acquisition
              strategy report, and the draft Extended Range Munition Acquisition
              Strategy.
          •   Determined whether the ERGM Program had a current and comprehensive
              TEMP and whether the Navy budgeted sufficient funds to conduct
              developmental and operational flight tests to demonstrate the satisfaction of
              the key performance parameter for reliability. To accomplish this audit
              objective, we reviewed the TEMP, reported test results, and assessed test
              and evaluation requirements in DoD Instruction 5000.2, the Defense
              Acquisition Guidebook, and Secretary of the Navy Instruction 5000.2C.




                                          17
           •   Determined whether Defense Contract Management Agency, Raytheon
               was delegated responsibility for performing quality assurance of ERGM
               subcontractors. To accomplish this audit objective, we reviewed the
               Federal Acquisition Regulation, the Defense Contract Management
               Agency One Book, memorandums of agreement between the NSFS
               Program Office and Defense Contract Management Agency, Raytheon, and
               conducted interviews with officials at the program office and Defense
               Contract Management Agency, Raytheon.

    Use of Computer Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform this
    audit.

    General Accounting Office High-Risk Area. The Government Accountability
    Office has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapons System Acquisition high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are operating
    as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program
    In accordance with DoD policy, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we focused our review on
    management controls for determining the ERGM procurement objective, for funding
    procurement quantities, for test planning, and for performing quality assurance
    oversight of ERGM subcontractors.

    Adequacy of Management Controls
    We identified material management control weaknesses concerning determining
    ERGM procurement quantities, complying with statutory requirements, full-funding of
    procurement quantities, updating the TEMP, and identifying test funding
    requirements, as defined by DoD Directive 5010.38 and DoD Instruction 5010.40.
    Recommendations A.1., A.2., and A.3., if implemented, will improve the controls for
    developing ERGM capabilities-based munitions requirements and for timely
    determining whether the ERGM Program is affordable. Recommendation B., if
    implemented, will improve the controls for timely updating the TEMP and obtaining
    funding for guided flight tests for the ERGM Program. We will provide a copy of this
    report to the senior official responsible for management controls.
                                          18
    Adequacy of Management’s Self-Evaluation. The Program Executive Officer for
    Integrated Warfare Systems performed annual reviews of the system of internal
    administrative and accounting controls in effect to satisfy the management control
    requirements. He used management reviews, audits, inspections, investigations, and
    other management information, such as knowledge from daily operations of programs
    and functions, to evaluate the assessable units. The Program Executive Officer for
    Integrated Warfare Systems based his annual statements of assurance on the results
    noted during the reviews of the assessable units. However, in the self-evaluations, he
    did not identify the specific management control weaknesses because the self-
    evaluations did not review those specific areas as part of the assessable units.
    Therefore, the Program Executive Officer for Integrated Warfare Systems did not
    identify or report the material management control weaknesses found by the audit. In
    addition, he did not identify the ERGM Program as a separate assessable unit.

    The ERGM Program was originally assigned to the Program Executive Officer,
    Surface Strike. In November 2002, the ERGM Program was realigned from the
    Program Executive Officer, Surface Strike to the Program Executive Office for
    Integrated Warfare Systems. Before this realignment, the Program Executive Officer,
    Surface Strike performed a management control program review for FY 2001 and
    identified the ERGM Program as an assessable unit. A management control program
    review was not performed for the ERGM Program in FY 2002. In FY 2003, the
    Program Executive Office for Integrated Warfare Systems revised the management
    control program for NSFS into 26 assessable units that were reorganized from
    programs and products to technical and business categories. Even though the ERGM
    Program was close to reclassification as an acquisition category I program, the
    Program Executive Office for Integrated Warfare Systems realigned the ERGM
    Program under the missiles and launchers assessable unit. The Program Executive
    Office for Integrated Warfare Systems prepared a Statement of Assurance in July 2003
    and again in June 2004 without specifically reporting on the ERGM Program. A
    representative for the Program Executive Office for Integrated Warfare Systems stated
    that the ERGM Program would again be assessed in January 2005 as part of the
    missiles and launchers assessable unit. The Program Executive Officer for Integrated
    Warfare Systems could improve the adequacy of his management control program if
    he identifies the ERGM Program or its successor program as a separate assessable
    unit.


Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), the
    Department of Defense Office of the Inspector General (DoD OIG), and the Naval
    Audit Service have issued four reports discussing the ERGM. Unrestricted GAO
    reports can be accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.mil/audit/reports.




                                          19
GAO
GAO Report No. GAO-04-248, “Defense Acquisitions: Assessments of Major
Weapon Programs,” March 2004

GAO Report No. GAO/NSIAD-99-91, “Defense Acquisitions: Naval Surface Fire
Support Program Plans and Costs,” June 1999

DoD IG
DoD IG Report No. D-2001-032, “Use of Exit Criteria for Major Defense Systems,”
January 10, 2001

Naval Audit Service
Naval Audit Service Report No. N2004-0057, “Earned Value Management for the
Extended Range Guided Munition Program,” June 16, 2004




                                   20
Appendix B. Glossary
   Acquisition Category I. An acquisition category I program is a major Defense
   acquisition program. A major Defense acquisition program is defined as a program
   estimated by the Under Secretary of Defense for Acquisition, Technology, and
   Logistics to require an eventual expenditure for RDT&E funds of more than
   $365 million (FY 2000 constant dollars) or procurement funds of more than
   $2.19 billion (FY 2000 constant dollars), or is designated by the Under Secretary of
   Defense for Acquisition, Technology, and Logistics to be an acquisition category I
   program.

   Acquisition Category II. An acquisition category II program is defined as an
   acquisition program that does not meet the criteria for an acquisition category I
   program, but does meet the criteria for a major system. A major system is defined as a
   program estimated by the DoD Component Head to require an eventual expenditure
   for RDT&E funds of more than $140 million in FY 2000 constant dollars, or for
   procurement funds of more than $660 million in FY 2000 constant dollars or those
   designated by the DoD Component Head to be an acquisition category II program.

   Acquisition Life Cycle. An acquisition life cycle consists of acquisition phases, each
   preceded by a milestone or other decision point, during which a system goes through
   RDT&E and production. Currently, the five phases are: concept refinement;
   technology development; system development and demonstration; production and
   deployment; and operations and support.

   Acquisition Program Baseline Agreement. An acquisition program baseline
   agreement prescribes the key cost, schedule, and cost constraints in the phase
   succeeding the milestone for which it was developed. The milestone decision
   authority approves the agreement, which is signed by the acquisition program
   manager.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the resource
   constraints imposed. It is the framework for planning, directing, contracting for, and
   managing a program. It provides a master schedule for research, development, test,
   production, fielding, modification, post-production management, and other activities
   essential for program success. The acquisition strategy is the basis for formulating
   functional plans and strategies.
   Arleigh Burke Class Destroyers. The Arleigh Burke class is a guided missile
   destroyer equipped with the Aegis Weapon System. The USS Arleigh Burke
   (DDG-51) was the first U.S. Navy ship designed to incorporate shaping techniques to
   reduce the radar cross-section, and therefore, reduce the likelihood of the ship being
   targeted by enemy weapons and sensors.

   Defense Planning Guidance. The Defense Planning Guidance documents DoD
   planning efforts of the Joint Staff, the Office of the Secretary of Defense, and the
   Services. The Secretary of Defense issues the Defense Planning Guidance annually to
   the DoD Components to provide the strategic framework for developing the Services’
   program objectives memorandums.
                                         21
Full and Open Competition. Full and open competition, when used with respect to a
contract action, means that all responsible sources are permitted to compete.

Future Years Defense Program. A future years defense program is the DoD
database and internal accounting system that summarizes forces and resources
associated with programs approved by the Secretary of Defense.

Global Positioning System. Within the ERGM, the Global Positioning System, a
part of the inertial navigation system, guides the ERGM round to its target.

Inertial Measurement Unit. The Inertial Measurement Unit coordinates digitally
with the mission computer for vehicle dynamic data, the Inertial Sensor Assembly,
and the Inertial Measurement Unit Circuit Card Assembly to confirm the ERGM
location during flight.

Joint Chiefs of Staff. The Joint Chiefs of Staff provide advice and assessment on
military capability needs. The Chairman of the Joint Chiefs of Staff presents this
advice and assessment through validated and approved capabilities documents.

Key Performance Parameters. Key performance parameters are those minimum
attributes or characteristics considered most essential for an effective military
capability. Key performance parameters cited in the Capability Development
Document and the Capability Production Document are included verbatim in the
acquisition program baseline agreement.

Life-Cycle Cost. Life-cycle costs are the total acquisition and ownership costs to the
Government for systems over their useful life. They include the cost of development,
acquisition, operations, and support (to include manpower), and where applicable,
disposal. For defense systems, life-cycle costs are also called total ownership cost.

Memorandum of Agreement. A memorandum of agreement is an agreement
between a program manager and a Contract Administration Office that establishes the
scope of the surveillance responsibility that the Contract Administration will perform
for the program manager.

Milestone Decision Authority. The milestone decision authority is the designated
individual that has the overall responsibility for a program. The milestone decision
authority has the authority to approve entry of an acquisition program into the next
phase of the acquisition process and is accountable for cost, schedule, and
performance reporting to higher authority.
Mission Need Statement. A mission need statement is a formatted non-system-
specific statement on the operational capability needed to meet a specific threat.

Naval Surface Fire Support. NSFS provides responsive, lethal, and non-lethal fires,
integrated and synchronized, to achieve the supported commander’s intent.

Near-Year Phased Threat Distribution. Near-year phased threat distribution is the
assignment of a portion of the enemy’s total combat capability (forces, installations,
and organizations) to DoD component commands. The distribution of types of targets
is used by the Services to determine their munitions requirements.

                                       22
Operational Requirements Document. An operational requirements document is a
formatted statement containing performance and related operational performance
parameters for the proposed concept or system.

Procurement Objective. A procurement objective is the quantities of munitions that
the Services acquire and derive by considering the total munitions requirement,
projected inventory, monetary constraints, industrial capacity, acceptance testing, and
production losses.

Program Objectives Memorandum. A program objectives memorandum is an
annual memorandum in a prescribed format submitted to the Secretary of Defense by
the DoD Component heads, which recommends the total resource requirements and
programs within the parameters of the Secretary of Defense’s fiscal guidance.

Research, Development, Test and Evaluation Funds. RDT&E funds are funds
appropriated for basic research, applied research, advanced technology development,
system development and demonstration, RDT&E management support, and
operational systems development.

Risk. Risk is the measure of the inability to achieve program objectives within
defined cost, schedule, and technical constraints associated with all aspects of the
program.

Statement of Assurance. The statement of assurance indicates whether or not the
management control systems meet the program standards, goals, and objectives of
sound and effectively implemented management controls.

System Development and Demonstration. The system development and
demonstration phase is the third phase of the DoD systems acquisition process. This
phase consists of two efforts, system integration and system demonstration, and begins
after Milestone B. It also contains a design readiness review at the conclusion of the
system integration effort. A successful Milestone B decision can place the program in
either system integration or system development phase of the acquisition process.

Technology Development. The technology development phase is the second phase of
the DoD systems acquisition process. The purpose of this phase is to reduce
technology risk and to determine the appropriate set of technologies to be integrated
into the full system. This effort is normally funded only for advanced development
work and does not mean that a new acquisition program has been initiated.
Total Munitions Requirement. The total munitions requirement is composed of war
reserve munitions (the sum of combat requirements, strategic readiness requirements,
and current operation and forward presence requirements) and training and testing
requirements.




                                       23
Appendix C. Description of the Extended Range
            Guided Munition Components and the
            Concept of Operation

Description of the Extended Range Munition




    CEP Circular Error Probable
    GPS Global Positioning System
    INS Inertial Navigation System

    ERGM Components

    The ERGM consists of three major subassemblies: the guidance section, the payload
    section, and the in-flight propulsion section. The ERGM is delivered with a ramming
    sheath and shipping container.
    The guidance section consists of two major subassemblies: the guidance electronics
    unit and the control subassembly. The guidance electronics unit and control assembly
    condition and regulate all power; accept and retain mission data; acquire global
    positioning system signals; cancel global positioning system jamming; deploy the
    canard and stabilize airframe roll; solve navigation; and generate autopilot and canard
    commands for guided flight.

    The payload section consists of two major subassemblies: the forward payload
    electronics assembly and the warhead assembly. The payload section provides the
    structural coordination between the guidance section and the propulsion section. It
    also contains the warhead, safe and arm device, and flight battery.

    The propulsion section consists of two major subassemblies: the rocket motor and
    tailfin assembly.


                                          24
Concept of Operation for the Extended Range
  Guided Munition Round
    The Navy plans to store the ERGM rounds in containers in the ship’s magazine.
    During operations, the gun crew will remove the ERGM rounds from the container
    and load them through a mechanical assist device into the lower hoist of the Mk 45
    gun system, which automatically transfers the rounds into the 10-round loader drum.
    Once the gun system receives a target location, the ERGM round interfaces with the
    global positioning system. Before firing the ERGM round, the Navy gunmen ram the
    ERGM round followed by the propellant charge into the Mk 45 gun mount. The
    guidance process continues with the gun shock activation of the flight battery that
    enables the system to fully operate after the ERGM round exits the gun barrel. Five
    seconds into flight, the onboard rocket motor ignites and burns for 8 seconds. The
    rocket motor burn allows the ERGM round to reach an altitude where it can deploy its
    canards to stabilize the roll. Once the ERGM is stabilized, the inertial measurement
    unit interfaces with the global positioning system satellite to guide the ERGM round
    towards the target. Upon reaching the target position, the safe-and-arm device
    activates and the burst sensor detonates the warhead at a predetermined altitude above
    the target. The ERGM round’s lethality is accomplished through the fragmentation
    effects of the warhead.




                                          25
Appendix D. Another Matter of Interest
   During the audit, we noted that the Defense Contract Management Agency (DCMA),
   Raytheon Contract Administration Office, Tucson, Arizona, was not delegating
   quality assurance surveillance functions for components developed for the ERGM
   Program.


   Defense Contract Management Agency Subcontractor Oversight

   DCMA, Raytheon did not delegate quality assurance responsibility for components
   developed at Raytheon subcontractors and suppliers for the ERGM Program. During
   the developmental flight testing, the ERGM experienced problems with the rocket
   motor igniter that was developed by Pacific Scientific Incorporated (Pacific
   Scientific), Phoenix, Arizona. As a result, Pacific Scientific had to redesign the rocket
   motor igniter. Pacific Scientific representatives at the DCMA Contract
   Administration Office, Phoenix, Arizona, stated that they did not receive a letter of
   delegation from DCMA, Raytheon to perform quality assurance reviews for the
   ERGM rocket motor igniter. Problems with the design of the rocket motor igniter
   may have been avoided if Raytheon had delegated the quality assurance surveillance
   function at Pacific Scientific to DCMA Contract Administration Office, Phoenix,
   Arizona.
   Federal Acquisition Regulation subpart 46.405, “Subcontracts,” requires that the
   Government perform quality assurance at the subcontractor level when the conditions
   for quality assurance at the source are applicable. The DCMA One Book states that
   quality assurance reviews during development of a weapon system must include
   delegations for surveillance at subcontractors and suppliers.

   The August 2002 and August 2003 Memorandums of Agreement between the NSFS
   Program Office and the DCMA, Raytheon Contract Administration Office for the
   ERGM Program did not comply with the requirements in the Federal Acquisition
   Regulation Part 46 and the DCMA One Book. DCMA, Raytheon stated that it relied
   on the Project Manager to delegate necessary quality assurance surveillance functions
   for the ERGM Program during the system development phase. However, in the
   August 2003 Memorandum of Agreement with DCMA, the Project Manager,
   Raytheon Contract Administration Office did not assign DCMA with responsibility
   for performing quality assurance surveillance functions at Raytheon subcontractors
   and suppliers.

   In the revised Memorandum of Agreement, September 2004, the Project Manager did
   include a requirement for the DCMA, Raytheon to delegate the quality assurance
   surveillance function to the Contract Administration Offices for ERGM subcontractors
   and suppliers. DCMA quality assurance surveillance of ERGM subcontractors and
   suppliers should benefit future development efforts for the ERGM Program.




                                          26
Appendix E. Determining Quantity Requirements
            for the Extended Range Guided
            Munition
   In December 1996 and again in June 1999, the Commanding General, Marine Corps
   Combat Development Command requested that the Chief of Naval Operations identify
   NSFS requirements for operational maneuvers while at sea. The Commanding
   General further stated that the affordability of future NSFS weapon systems and
   ordnance were a critical factor for ensuring that Naval forces had sufficient munitions
   to meet their operational needs. At those times, however, the Commanding General
   did not provide the Navy with an estimate of the ERGM rounds needed to support the
   Marine Corps’ NSFS requirement.
   Responsibility for Developing ERGM Quantity Requirements. Section 5038,
   title 10, United States Code, “Director for Expeditionary Warfare,” specifies that the
   Director for Expeditionary Warfare is responsible for determining warfare
   requirements, which includes determining the ERGM procurement objective. The
   Director for Expeditionary Warfare, however, was not recognized within the Navy as
   the authority for determining procurement requirements for NSFS acquisition
   programs. The Commanding General, Marine Corps Combat Development
   Command, did communicate ERGM procurement objective requirements identified in
   various analyses to the Director, Surface Warfare Division. However, the Director,
   Surface Warfare Division did not obtain clarification or consult with the Commanding
   General concerning the completeness of the ERGM quantity requirement before
   providing the Project Manager with procurement objectives of 8,500 and
   20,780 ERGM rounds in April 1997 and October 2003, respectively, for inclusion in
   the acquisition program baseline agreements. Under the November 2002
   reorganization within the Office of the Chief of Naval Operations, the Director for
   Expeditionary Warfare’s authority over NSFS requirements was further diminished
   when the Chief of Naval Operations approved, through Sea Power 21 Strategic Action
   Plan, the realignment of the Marine Corps role for Expeditionary Warfare into a joint
   warfare component. In that role, the Director for Expeditionary Warfare did not
   directly coordinate with the Director, Surface Warfare Division to ensure that the
   appropriate procurement objective was included in the ERGM acquisition program
   baseline agreement.

   Requirements Analyses Performed. In March 2002, the Commanding General,
   Marine Corps Combat Development Command provided the Navy with an analysis of
   the total number of rounds that would be required to accomplish the Naval Surface
   Fire Support mission based on the Defense Planning Guidance and the Quadrennial
   Defense Review. The analysis was based on two studies from the Naval Surface
   Warfare Center, Dahlgren Division, Dahlgren, Virginia; one study from Johns
   Hopkins University, Applied Physics Laboratory, Columbia, Maryland; and one study
   from the Marine Corps Combat Development Command, Quantico, Virginia. Based
   on the results of the studies, the Commanding General reported that the Marine Corps
   may need from 51,650 to 409,160 rounds to satisfy NSFS requirements. The studies
   computed ERGM estimated quantities based on the Defense Planning Guidance
   scenario of a single mid-to high-intensity Major Theater War and a near simultaneous
   Small Scale Contingency occurring in southwest or northeast Asia. The ERGM
                                         27
estimated quantities computed in the studies were not included in the February 2003
ERGM acquisition program baseline agreement because the Navy did not have
procurement funds necessary to fund the significantly higher ERGM procurement
objectives. The following figure summarizes the study results.




                                     28
                                                                                                              21st Century SCFLS –
                                                                                                              Assessing the Impact of
                               OMFTS 2015 MAA           Volume of Fire Study     NSFS Requirements and       Evolving Missions on the
                                                                                   Capabilities Study        Surface Combatant Force

     Source                 Marine Corps Combat        Naval Surface Warfare     Johns Hopkins University   Naval Surface Warfare
                            Development Command        Center, Dahlgren          Applied Physics Lab        Center, Dahlgren
     Scenario               Southwest Asia             Northeast Asia            Northeast Asia             Northeast Asia

     Basis                  6,814 rounds/6 days        5,394 rounds/19 hours     18,000 rounds/17 hours     314,300 rounds/65 days

     Daily assault rate               1,136                     2,697                      9,000                       n/a

     Daily sustained rate               251                       596                      1,988                       n/a

     30-day assault                  34,080                    80,910                    270,000                       n/a




29
     60-day sustained                15,060                    35,760                    119,280                       n/a

     10-day small scale               2,510                      5,960                    19,880                       n/a
      contingency
      (sustained rate)

       Total                         51,650                    122,630                   409,160                     314,300

     MAA   Mission Area Analysis
     OMFTS Operational Maneuvers From the Sea
     SCFLS Surface Combatant Force Level Study

     Source: Memorandum from Commanding General, Marine Corps Combat Development Command, “ Naval Surface Fire Support Requirements for
             Expeditionary Maneuver Warfare,” March 19, 2002


     Studies Performed to Identify NSFS Requirements
Appendix F. Audit Response to Management
            Comments on the Report

Under Secretary of Defense for Acquisition, Technology, and
  Logistics
     Management Comments. In unsolicited comments, the Under Secretary of Defense
     for Acquisition, Technology, and Logistics concurred with the draft report findings
     and recommendations.


Deputy Assistant Secretary of the Navy (Littoral and Mine
  Warfare) Comments
     The Deputy Assistant Secretary of the Navy (Littoral and Mine Warfare), Office of the
     Assistant Secretary of the Navy for Research, Development and Acquisition, provided
     additional comments on statements in the draft report. The complete text of the
     management comments on statements in the draft report is in the Management
     Comments section of the report.

     Navy Comments. The Deputy Assistant Secretary recommended revising the draft
     report to state that the ERGM has a unitary warhead that is optimized for attacking
     soft targets such as troops in the open because the munition was not designed to
     efficiently attack hardened targets.

     Audit Response. The operational requirements document for the ERGM states that
     the munition was being developed to engage air defense systems, mobile surface-to-
     surface missile batteries, bunkers and fortifications, artillery, troops and light armored
     vehicles. Accordingly, we revised the report to state that the ERGM will engage soft-
     to-medium hardened targets.

     Navy Comments. The Deputy Assistant Secretary recommended revising the draft
     report to state that the Navy intends to deploy the ERGM on only the 32 Arleigh
     Burke Class Destroyers because the Navy no longer intends to make the Ticonderoga
     Class cruisers capable of firing extended range munitions.

     Audit Response. We removed reference to the Ticonderoga Class cruisers from the
     report.

     Navy Comments. The Deputy Assistant Secretary recommended deleting the
     sentence concerning the Major Program Manager from the report because the Program
     Executive Officer, Integrated Warfare Systems was not responsible for some surface
     weapons such as the Tomahawk missile.


                                             30
Audit Response. We revised the sentence to state that the Major Program Manager is
responsible for all surface weapons within the purview of the Program Executive
Officer, Integrated Warfare Systems.

Navy Comments. The Deputy Assistant Secretary recommended revising the draft
report statement that the Navy did not justify the ERGM quantity requirements
reported in the approved acquisition program baseline agreement because the Navy
Acquisition Executive does not have authority to require the Director, Surface
Warfare Division to perform the required analysis.

Audit Response. We revised the statement in the report to say that the Secretary of
the Navy rather than the Navy Acquisition Executive has the responsibility to direct
the Director, Surface Warfare Division to perform the required analysis in accordance
with guidance in DoD Instruction 3000.4.

Navy Comments. The Deputy Assistant Secretary recommended revising the draft
report statement that the Commanding General, Marine Corps Combat Development
Command did not provide the Navy with an analysis of the total number of ERGM
rounds that would be required in the fleet inventory based on the Defense Planning
Guidance and Quadrenniel Defense Review because those studies addressed naval
surface fire support and not total ERGM round requirements. He stated that the
results of the four studies may be useful in determining quantities of munitions that
will be required to support a single mid-to-high-density Major Theater War and a near
simultaneous, small scale contingency.

Audit Response. We revised the report to state that the results from the four studies
may have been useful in determining quantities of ERGM rounds needed for NSFS.
However, the four studies by themselves did not provide a definitive number of
ERGMs needed to support the ERGM inventory objective.

Navy Comments. The Deputy Assistant Secretary recommended deleting the
sentence stating that the Director for Expeditionary Warfare’s authority was further
diminished after the November 2002 reorganization within the Office of the Chief of
Naval Operations because it is inaccurate.

Audit Response. According to representatives within the Office of the Chief of Naval
Operations, the role of the Director for Expeditionary Warfare was diminished as a
result of the Sea Power 21 Chief of Naval Operations Strategic Actions Group
reorganization. Further, Section 5038, title 10, United States Code, specifies that the
Director for Expeditionary Warfare is responsible for determining warfare
requirements, including determining the ERGM procurement objective. Accordingly,
we did not delete this sentence.

Navy Comments. The Deputy Assistant Secretary recommended revising the draft
report statement that the Navy did not have a viable acquisition program strategy to
immediately acquire the ERGM rounds in FY 2008 when the system development and
demonstration phase of the acquisition process is to be completed. He stated that the
statement was inaccurate because the Navy has continually fully funded ERGM



                                      31
procurement quantities identified in the 1996 ERGM Acquisition Program Baseline
agreement and that these procurement quantities have been validated by the non-
nuclear ordnance requirements process.

Audit Response. The ERGM Program was not always fully funded. In March 2004,
as stated in the report, the Director, Surface Warfare Division decided to realign and
remove the ERGM procurement funding because of performance problems in
developmental testing and the decision to delay the start of production until FY 2010.
The Navy did not complete the non-nuclear ordnance requirements process until
March 31, 2005, after we completed the audit. As required, the Navy should have
developed an accurate and validated inventory for the ERGM Program and determined
its affordability before the ERGM Program entered the engineering and manufacturing
development phase of the acquisition process in July 1996. Accordingly, we did not
revise those statements.




                                      32
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Chief of Naval Operations
  Director, Naval Surface Warfare Division
  Director for Expeditionary Warfare
Commandant of the Marine Corps
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Commander, Naval Sea Systems Command
      Program Executive Officer Integrated Warfare Systems
         Project Manager, Naval Surface Fire Support
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency




                                            33
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and
  the Census, Committee on Government Reform




                                           34
______________________________________________________________________


Department of the Navy Comments




                                  35
36
37
38
     Final Report
      Reference




     Page 6




39
Final Report
 Reference




Page 1



Page 1




Page 3


Pages 4
and 5




Page 6




               40
     Final Report
      Reference




     Page 6




     Page 7




41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

John E. Meling
Rodney D. Britt
Julie C. Kienitz
Shaun B. Jeffery
Douglas W. Slaughter
Rebecca T. Crown-Schwartz
Jacqueline N. Pugh
